OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SRI LANKA’S
LARGE-SCALE
INFRASTRUCTURE
REBUILDING ACTIVITIES
UNDER ITS SRI LANKA
TSUNAMI RECONSTRUCTION
PROGRAM
AUDIT REPORT NO. 5-383-07-001-P
November 30, 2006




MANILA, PHILIPPINES
Office of Inspector General


November 30, 2006

MEMORANDUM

TO:                  USAID/Sri Lanka Mission Director, Rebecca W. Cohn

FROM:                Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:             Audit of USAID/Sri Lanka’s Large-Scale Infrastructure Rebuilding Activities
                     Under Its Sri Lanka Tsunami Reconstruction Program
                     (Audit Report No. 5-383-07-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments (without attachments)
in Appendix II.

This report contains two recommendations to improve USAID/Sri Lanka’s management of its
contract with CH2M Hill by executing contract modifications more timely. Based on your
comments, we consider that a management decision has been reached on Recommendation
No. 1. Please provide the Audit, Performance and Compliance Division of USAID’s Office of the
Chief Financial Officer with evidence of final action in order to close this recommendation.
Regarding Recommendation No. 2, we consider that final action has been taken on the
recommendation.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Boulevard, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

Were USAID/Sri Lanka’s large-scale infrastructure rebuilding activities
achieving planned outputs and within the cost estimates?

   Contract Modifications Could Be More Timely ............................................................ 11

Evaluation of Management Comments ....................................................................... 13

Appendix I – Scope and Methodology ........................................................................ 14

Appendix II – Management Comments ....................................................................... 16
SUMMARY OF RESULTS
The Regional Inspector General/Manila conducted this audit to determine whether
USAID/Sri Lanka’s large-scale infrastructure rebuilding activities under its Sri Lanka
Tsunami Reconstruction Program (SLTRP) were achieving planned outputs and within
the cost estimates. (See page 2.)

The SLTRP is a $33.3 million project to rebuild infrastructure damaged by the December
2004 tsunami that struck Sri Lanka. USAID/Sri Lanka contracted CH2M Hill, a
U.S.-based contractor to implement the SLTRP. (See page 2.) At the time of our audit,
construction had not started. Consequently, our audit covered preconstruction outputs
and costs. (See page 3.)

As of May 31, 2006, USAID/Sri Lanka’s large-scale infrastructure rebuilding activities
under the SLTRP either achieved or were achieving 43 of 54 planned preconstruction
outputs and the reported costs for the activities were within cost estimates.
(See page 3.)

Although the SLTRP had achieved or was achieving 43 preconstruction outputs, 29
outputs had timeliness issues. Eleven finalized outputs were not completed on time, and
work was ongoing or had not started on another 14 outputs that should have been
completed by May 31, 2006. Also, work had not started on four of eight outputs with
target completion dates that fell after May 31, 2006. This slippage contributed to the
deferral of planned start and completion dates for some construction. (See page 5.)

In a number of cases, however, the causes for the slippage were outside the control of
USAID/Sri Lanka or CH2M Hill. Further, all revised planned completion dates for the
construction of infrastructure were still within the contract’s original end date.
(See page 5.)

Even with the slippage that occurred, USAID/Sri Lanka and CH2M Hill officials believed
that all of the SLTRP’s large-scale infrastructure rebuilding activities would be completed
by the contract end date of March 31, 2008. Both parties, however, identified two risks
that could hamper progress during the construction phase: security and inflation.
(See page 5.)

USAID/Sri Lanka could improve its management of the contract with CH2M Hill by
executing contract modifications more timely. This report contains two recommendations
on this issue. (See pages 11 and 12.) Based on our evaluation of the Mission’s
comments and supporting documentation, we consider that a management decision has
been reached on Recommendation No. 1 and final action has been taken on
Recommendation No. 2. (See page 13.) USAID/Sri Lanka’s comments are included as
Appendix II to this report. (See page 16).




                                                                                     1
BACKGROUND
On December 26, 2004, a magnitude 9.0 earthquake off the west coast of Northern
Sumatra, Indonesia, spawned a massive tsunami that struck several countries
throughout South and Southeast Asia, as well as Somalia, Tanzania, Kenya and the
Seychelles in East Africa. Whole communities, roads, and other infrastructure were
obliterated. Over 150,000 people were killed and hundreds of thousands were
displaced. Of the affected countries, Sri Lanka was hit second hardest, after Indonesia.

On May 11, 2005, President Bush signed into law the “Emergency Supplemental
Appropriations Act for Defense, the Global War on Terror and Tsunami Relief, 2005”,
which provided funding for a number of purposes including assisting victims of the
tsunami. Of the $656 million appropriated to USAID, USAID/Sri Lanka received $134
million for its overall Tsunami Recovery and Reconstruction Program, and it set aside
$35 million of what it received for rebuilding large-scale infrastructure.

On September 7, 2005, USAID/Sri Lanka awarded CH2M Hill, a U.S.-based contractor,
a $32.8 million contract to implement the Mission’s large-scale infrastructure rebuilding
activities. The contract was subsequently increased to $33.3 million and it had an end
date of March 31, 2008. Both parties refer to the work under this contract as the Sri
Lanka Tsunami Reconstruction Program (SLTRP).

The activities to be carried out by CH2M Hill under the SLTRP included the design and
renovation or construction of a major bridge and access roads, vocational education
facilities, fish harbors, and water and sanitation systems. In addition, the contractor was
to provide construction management services and technical assistance such as
vocational education training and community-based organizational development. The
contract classified these large-scale infrastructure rebuilding activities under four
components: program management, vocational education, participatory coastal
management, and construction management.

As of May 31, 2006, the contractor had spent $2.6 million on assessment reports,
studies, surveys, master plans, designs and bid documents. As of the same date,
USAID/Sri Lanka had disbursed $2.3 million to CH2M Hill for the SLTRP. USAID/Sri
Lanka’s Tsunami Reconstruction Division under the Economic Growth Team is
responsible for managing the large-scale infrastructure rebuilding activities under the
SLTRP.

AUDIT OBJECTIVE

As part of its fiscal year 2006 annual audit plan, the Regional Inspector General/Manila
conducted this audit to answer the following question:

•   Were USAID/Sri Lanka’s large-scale infrastructure rebuilding activities achieving
    planned outputs and within the cost estimates?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      2
AUDIT FINDINGS
As of May 31, 2006, USAID/Sri Lanka’s large-scale infrastructure rebuilding activities
either achieved or were achieving 43 of 54 planned outputs and reported costs for the
activities were within cost estimates. However, 29 outputs had timeliness issues that
affected the start and completion dates for some planned construction.

As of our audit cutoff date of May 31, 2006, actual construction of infrastructure under
the Sri Lanka Tsunami Reconstruction Program (SLTRP) had not begun. As shown in
Table 1, $23.4 million (70 percent of the contract budget) was allotted for construction
work. 1 Consequently, our audit covered only preconstruction outputs and costs.

For the large-scale infrastructure rebuilding activities under the SLTRP, the contract
between USAID/Sri Lanka and CH2M Hill and related project implementation plans
contained 54 planned preconstruction outputs that had start dates before May 31, 2006.
According to the same documents, CH2M Hill should have completed 46 of the 54
outputs by May 31, 2006. Table 2 on page 4 shows that by that date, CH2M Hill had
successfully completed 32 of the 46 outputs, and in 21 of these cases, it had done so on
or before the target completion dates. Of the remaining 14 outputs, CH2M Hill was still
working on seven, and, with the Mission’s approval, it had deferred work on the other
seven for justifiable reasons. Further, CH2M Hill was making progress on four of eight
outputs with target completion dates that fell after May 31, 2006.

Table 1 compares costs reported by CH2M Hill as incurred for the SLTRP from
September 7, 2005 through May 31, 2006, to the budget for the same period by the
budget categories outlined in the SLTRP contract.

                       Table 1: Cost Comparison – Actual To Budget
                                    As of May 31, 2006
                                       (Unaudited)

                                                  Total                              Reported
                                                 Contract          Budget             Costs
                Budget Category                  Budget 2         To Date 3          To Date
    Engineering, Construction Management,
    Technical Assessments & Procurement            $6,932,085       $2,556,519        $2,512,953
    Services
    Fixed Fee                                         905,619            95,000          97,806
    Actual Construction Work                       23,402,179                    0              0
    Equipment for Vocational Education
                                                    2,100,000                    0              0
    Centers
                     Totals                       $33,339,883       $2,651,519        $2,610,759

1
    Construction was not scheduled to begin until the August 2006 to February 2007 timeframe.
2
    The current contract budget through March 31, 2008, the contract end date.
3
 The cumulative totals of the monthly budgets from September 2005 through May 2006; these
monthly budgets were prepared by the contractor for its internal monitoring of costs.


                                                                                                3
As Table 1 shows, reported costs to date for the large–scale infrastructure rebuilding
activities under the SLTRP were within the contractor’s estimated costs as reflected in its
budget to date.

SLTRP estimated costs for the entire contract period had increased since the contract
was originally signed, but the increases were for new or unplanned work as opposed to
additional funds to complete work already started. Through May 31, 2006, USAID/Sri
Lanka had raised total estimated costs by $527,148 to the current $33.3 million total.
New work included $164,084 for an engineering study to downsize the design of the
Arugam Bay Bridge because the original design was too costly. Another $343,148 was
added to the contract for more expatriate construction supervision services, which were
needed to compensate for an unplanned local shortage in this skill category.
Additionally, the Mission was in the process of adding another $294,746 for unplanned
groundwater investigations (see page 10).

Once all subcontracts for construction work have been bid, USAID/Sri Lanka will have a
clearer picture of where the SLTRP stands with respect to the $23.4 million budgeted for
construction. However, other uncertainties remain. For example, construction work is
susceptible to large cost increases. And, as discussed on page 5, Mission and CH2M
Hill officials were concerned about security and inflation and their potential effect on the
progress and cost of the construction phase of the SLTRP.

As noted in the “Background” section of this report, the contract categorized the
SLTRP’s large-scale infrastructure rebuilding activities into four distinct components:

•     Program management.
•     Vocational education.
•     Participatory coastal management.
•     Construction management.

Fifty-four preconstruction outputs had planned start dates before May 31, 2006. Table 2
summarizes the status of these outputs by SLTRP component as of May 31, 2006.

                    Table 2: Status of Planned Preconstruction Outputs
                                    (As of May 31, 2006)

                              Target Completion               Target Completion
                               Dates by 5/31/06               Dates after 5/31/06
                                                                                       Total
        SLTRP         Outputs       Outputs       Outputs      Outputs     Outputs    Planned
      Component      Completed    In Progress     Deferred   In Progress   Deferred   Outputs
    Program
                         10           0              0           0            0         10
    Management
    Vocational
                          3           2              1           0            0          6
    Education
    Participatory
    Coastal               7           1              4           0            2         14
    Management
    Construction
                         12           4              2           4            2         24
    Management
         Totals          32           7              7           4            4         54



                                                                                          4
Although the SLTRP had achieved or was achieving 43 of 54 planned preconstruction
outputs, 29 outputs had timeliness issues. Eleven of 32 finalized outputs were not
completed on time, work continued on seven outputs that should have been completed
by May 31, 2006, and work on another seven outputs that should also have been
completed by May 31, 2006, had not begun by that date. Also, work had not started on
four of eight outputs with target completion dates that fell after May 31, 2006. This
slippage contributed to the deferral of planned start and completion dates for some
construction.

In a number of cases, however, the causes for the slippage were outside the control of
USAID/Sri Lanka or CH2M Hill. Further, all revised planned completion dates for the
actual construction of infrastructure were still within the contract’s original end date.

Even with the slippage that occurred, USAID/Sri Lanka and CH2M Hill officials believed
that all of the SLTRP’s large-scale infrastructure rebuilding activities would be completed
by the contract end date of March 31, 2008. Both parties, however, identified two risks
that could hamper progress during the construction phase: security and inflation. The
parties explained that the truce between the Government of Sri Lanka and the Tamil
Tigers was tenuous at best and the demand by international donors for construction
firms and workers in Sri Lanka could result in higher than anticipated construction costs.

The following narrative complements Table 2 by providing more detail on the status of
the SLTRP’s planned preconstruction outputs by component.

Program Management Component – Under this component, CH2M Hill was
responsible for administrative management of the overall SLTRP including budget and
cost reporting, contract administration, and personnel management. Additionally, the
contractor was responsible for achieving 10 planned preconstruction outputs related to
personnel, performance monitoring and project management controls.

All 10 outputs were completed. Specifically, CH2M Hill had:

•   Hired key personnel.
•   Prepared a project implementation plan.
•   Prepared updated project implementation plans.
•   Established a monthly progress reporting system.
•   Prepared a construction manual.
•   Established a cost control reporting system.
•   Established a quality control program.
•   Developed a risk management plan.
•   Developed a security/asset protection plan.
•   Established a materials and equipment inventory system.

Vocational Education Component – Under this component, CH2M Hill was
responsible for designing a vocational education program and vocational education
school buildings, and identifying the equipment needed for the schools. The actual
construction or renovation of school buildings was to occur under the construction
management component.




                                                                                     5
Of six planned preconstruction outputs, three were completed, two were in progress and
the start of one was deferred.

                               Outputs                                                Status
 Target Completion Dates By May 31, 2006
 Establish a vocational education advisory council                               Completed
 Conduct the first advisory council meeting                                      Completed
 Deliver a vocational education assessment report                                Completed
 Conduct a study tour to India                                                   In Progress
 Deliver a program of spaces and curriculum development                          In Progress
 Conduct a study tour to U.S.                                                    Deferred

Under the program of spaces and curriculum development, CH2M Hill was to design a
vocational education curriculum to address skill gaps in areas such as English,
information and communication technology, and micro-enterprise development.
Additionally, CH2M Hill was to complete space descriptions and specifications to be
used in designing 10 vocational education schools, and it was to select the sites for the
schools.

CH2M Hill experienced delays in delivering a program of spaces and curriculum
development. According to USAID/Sri Lanka and CH2M Hill officials, this output was not
completed on time primarily because of host government delays in approving the sites
selected for the 10 schools. Other contributing factors were the turnover of host
government officials involved in vocational education and USAID/Sri Lanka concerns
about the political insecurity of some sites, and the ethnic composition of the students
who would attend the schools. The Mission subsequently informed us that all 10 sites
were approved in early July 2006.




OIG photograph of an old police station in Koggala, Sri Lanka, which will be razed and a new
vocational school building constructed in its place. A variety of trades such as apparel-making will
be taught here. (June 2006)




                                                                                               6
The two study tours—to introduce Sri Lankan vocational education officials to the
vocational education methods and facilities of other countries—that had not been
completed had no impact on the overall SLTRP. CH2M Hill, however, had to push back
by about seven months the targeted start and end dates for the actual construction or
renovation of vocational education schools because of the delays in site selections.
Although the new targeted completion date for the construction phase is still within the
original contract end date, CH2M Hill will have less leeway to make adjustments should
delays occur during that phase. At the time of our audit, there was insufficient
information to determine whether the site selection delays would have a discernable cost
impact on the construction phase.

Participatory Coastal Management Component – The activities under this component
had several objectives; including strengthening community participation in coastal
development, strengthening the host government’s capacity to address environmental
and natural resource management related to tourism and fisheries, and promoting sound
coastal development. Additionally, this component contained 14 planned preconstruction
outputs related to the infrastructure rebuilding work that would be done at three fish
harbors and Arugam Bay.

Of the 14 outputs, seven were completed, one was in progress and the start of six had
been deferred.

                               Outputs                                        Status
 Target Completion Dates By May 31, 2006
 Community consultation and participation                                 Completed
 Fisheries assessment report                                              Completed
 Harbor master plan – Hikkaduwa Fish Harbor                               Completed
 Harbor master plan – Mirissa Fish Harbor                                 Completed
 Harbor master plan – Puranawella FishHarbor                              Completed
 Stakeholder assessment and gender analysis report                        Completed
 Solid waste management plans                                             Completed
 Hazard vulnerability assessment report                                   In Progress
 Integrated water resource plan for the Arugam Bay watershed              Deferred
 Sustainable tourism management plans                                     Deferred
 Public education/outreach strategy and plans                             Deferred
 Lessons learned and best practices report                                Deferred
 Target Completion Dates After May 31, 2006
 Financial management plans (three harbors and Arugam Bay)                Deferred
 Coastal development plans                                                Deferred

CH2M Hill deferred the start of four outputs that had completion dates before May 31,
2006. It deferred the start of work on the integrated water resource plan for the Arugam
Bay watershed pending the results of the groundwater investigations discussed on page
10. It also deferred the start of work on developing the financial management plans,
sustainable tourism management plans, and public education/outreach plans to prioritize
the completion of other outputs critical to getting the construction phase started on time,
such as the fish harbor master plans and the environmental assessments for each of the
three harbors and the Arugam Bay Bridge. (The environmental assessments are
discussed on pages 8 and 9.)



                                                                                       7
CH2M Hill did not prepare separate documents for two outputs: the lessons learned and
best practices report and the coastal development plans. Every six months, the
contractor was to submit to USAID/Sri Lanka a lessons learned and best practices report
documenting experiences gained while implementing the activities under this
component. The contractor was also required to submit coastal development plans
providing recommendations for coastal development activities at each site where such
activities were to occur. In lieu of these two documents, the Mission accepted a
document entitled “Participatory Coastal Management (PCM) Action Plan, Lessons
Learned and Work Plan for Sri Lanka Tsunami Reconstruction Program (SLTRP) PCM
Component”.

However, we questioned whether the document satisfied contract requirements for these
two outputs because (1) with the exception of the words “Lessons Learned” in the title, it
did not discuss lessons learned during the first six months of work under this component,
and (2) it indicated that CH2M Hill itself would not deliver coastal development plans.

Based on our concerns, both the Mission cognizant technical officer (CTO) and CH2M
Hill took action to meet the contract’s requirements for these two outputs. The CTO
requested a separate, concise, and meaningful lessons learned and best practices
report; the contractor agreed to develop and deliver the coastal development plans by
February 2007. Based on these actions, we classified these two outputs as deferred.

Construction Management Component – It is under this component that the actual
construction of infrastructure was to be tracked. The infrastructure to be constructed
included the Arugam Bay Bridge, three fish harbors, three water and sanitation facilities,
and 10 vocational schools. 4 This component had 24 planned preconstruction outputs
related to the infrastructure. These outputs were in addition to the outputs described
under the vocational education and participatory coastal management components.

Of the 24 outputs, 12 were completed, eight were in progress and the start of four had
been deferred. These outputs are discussed below by the planned construction
activities with which they were associated.

    Arugam Bay Bridge - Five planned preconstruction outputs were associated with
building a new bridge at Arugam Bay and related access roads. CH2M Hill planned to
award a subcontract so that construction could begin in August 2006.

Four outputs were completed and one was in progress.

                                   Outputs                                   Status
    Target Completion Dates By May 31, 2006
    Environmental assessment report                                      Completed
    Preliminary assessment report                                        Completed
    Field investigations report                                          Completed
    Subcontractor prequalification                                       Completed
    Target Completion Date After May 31, 2006
    Design and tender documents                                          In Progress
4
  The three water and sanitation facilities consisted of two water treatment plants at the
communities of Pottuvil and Panama (discussed on page 10) and one waste-water treatment
facility at Pottuvil (discussed on page 11).


                                                                                      8
Completed outputs included the environmental assessment report, the preliminary
assessment report, and subcontractor prequalification—all needed to be completed
before a construction subcontract could be awarded. Furthermore, CH2M Hill delivered
draft design/tender documents to prospective bidders and held a pre-tender conference
shortly after our audit cutoff date of May 31, 2006. Consequently, these activities were
on schedule to begin construction of the Arugam Bay Bridge—the signature project
estimated to cost $8.5 million—in August 2006, as originally planned.




 OIG photograph showing the half of the original steel-truss Arugam Bay Bridge that survived the
 tsunami connected to a temporary bailey bridge. A new bridge will be built adjacent to this one.
 (Arugam Bay, southeastern coast of Sri Lanka, June 2006)


    Fish harbors and water and sanitation facilities – Thirteen planned preconstruction
outputs were associated with the planned construction work on three fish harbors and
three water and sanitation facilities.

Seven outputs were completed, four were in progress and the start of two had been
deferred.

                                  Outputs                                         Status
 Target Completion Dates By May 31, 2006
 Environmental assessment reports – fish harbors                              Completed
 Preliminary assessment reports – fish harbors                                Completed
 Field investigations report – fish harbors                                   Completed
 Design and draft tender documents – fish harbors minor works                 Completed
 Subcontractor prequalification – fish harbors major works                    Completed
 Final tender documents & contract award – fish harbors minor works           Completed
 Preliminary assessment report – water treatment plants, phase 1              Completed
 Arugam Bay planning studies                                                  In Progress
 Field investigations report – water treatment plants                         Deferred




                                                                                           9
                               Outputs                                              Status
 Target Completion Dates After May 31, 2006
 Design and tender documents – fish harbors major works                         In Progress
 Tender & contract award – fish harbors major works                             In Progress
 Preliminary assessment report – water treatment plants, phase 2                In Progress
 Water and sanitation design and tender documents                               Deferred

USAID/Sri Lanka took steps to begin construction work on the fish harbors sooner than
originally planned. In December 2005, a CH2M Hill consultant recommended fast
tracking minor construction activities. Following CH2M Hill’s consultations with the
fishing community and the Ceylon Fisheries Harbors Commission, the Mission
requested the construction work to be split into two activities: minor works for on-shore
rehabilitation tasks, and major works for off-shore dredging and breakwater repairs. The
Mission approved the design and tender documents for the minor works in April 2006,
and CH2M Hill awarded a $211,700 subcontract for this work on June 13, 2006, about
two weeks after our audit cutoff date. The award of a subcontract for major works had
been moved up from the original date of October 6, 2006, to August 31, 2006.

CH2M Hill deferred plans to design and build two water treatment plants for the
communities of Pottuvil and Panama. This was done, in part, because of host
government concerns that diverting water from the Rota Tank reservoir—the intended
source of drinking water for the communities—might deprive farmers of water for their
crops and animals. Additionally, USAID/Sri Lanka officials felt that groundwater wells
might be a better, lower-cost alternative to water treatment plants. In March 2006, the
Mission tasked the contractor to conduct groundwater investigations and deliver an
assessment report on the best source of drinking water for Pottuvil and Panama. At the
time of our audit in June 2006, drilling was ongoing at these two locations, but the
Mission had not modified its contract with CH2M Hill to formally add these activities to
the contractor’s scope of work. (This issue is discussed further on page 11.)




OIG photograph of drilling operations to determine the feasibility of using groundwater instead of
surface water as the water source for the communities of Pottuvil and Panama, which are located
along the eastern coast of Sri Lanka. (June 2006)




                                                                                           10
The deferral of outputs related to the two water treatment plants pushed back the
planned start of construction for water and sanitation facilities from October 2006 to
February 2007. At the time of our audit, there was insufficient information to determine
whether the deferrals would have a discernable cost impact on the construction phase.

   Vocational education schools – Six planned preconstruction outputs were
associated with the planned construction or renovation of 10 vocational education
schools.

One output was completed, three were in progress and the start of two had been
deferred.

                                Outputs                                     Status
 Target Completion Dates By May 31, 2006
 Environmental assessment report                                       Deferred
 Preliminary assessment report                                         Completed
 Field investigations report                                           In Progress
 Design and tender documents                                           In Progress
 Subcontractor prequalification                                        In Progress
 Target Completion Date After May 31, 2006
 Tender and contract award                                             Deferred

CH2M Hill was behind schedule in submitting a number of the deliverable outputs. As
discussed earlier, delays in reaching agreement on where schools would be located
affected the achievement of planned outputs under the Vocational Education
component. Those delays have similarly affected the achievement of planned outputs
under this component. For example, the environmental assessment report, design work
and the field investigations report could not be delivered until the relevant parties
reached agreement on all school locations. Furthermore, CH2M Hill, as we noted
earlier, had to push back by about seven months the targeted start and end dates for the
actual construction or renovation of vocational education schools because of the delays
in site selections.

As discussed below, our audit of the SLTRP found that USAID/Sri Lanka could improve
its management of the contract with CH2M Hill.

Contract Modifications Could be
More Timely
Federal Acquisition Regulation 52.243-2 requires a contracting officer to modify a cost
reimbursement contract if changes are made to the general scope of a contract.
However, in two cases USAID/Sri Lanka had not modified its contract with CH2M Hill to
reflect decisions made to change the contract’s scope of work.

In December 2005, USAID/Sri Lanka and CH2M Hill agreed to remove from the contract
the requirement for a waste-water treatment facility at Pottuvil because the community
did not have a waste-water collection system. As of June 22, 2006, however, the
Mission had not modified the contract to delete this requirement from the contract.




                                                                                  11
On March 22, 2006, USAID/Sri Lanka prepared a Modified Acquisition and Assistance
Request Document (MAARD) to initiate a change to the CH2M Hill contract. 5 The
Mission wanted to add groundwater investigations to the scope of work and provide
$294,746 for those investigations. As of June 22, 2006, however, its contracting office
had not modified the contract to execute the changes proposed in the MAARD.

USAID/Sri Lanka’s temporary contracting officer felt that it was not necessary to
promptly execute all modifications. Regarding the waste-water treatment facility, the
contracting officer stated that there was no harm in waiting to execute a modification.
Regarding the MAARD, a Mission official stated that the Mission and contractor had
agreed to wait until the groundwater investigations were completed so that the
modification could incorporate all scope of work changes needed as a result of the
investigations.

However, untimely contract modifications could lead to contractual disputes.
Modifications document the agreement reached between the involved parties on the
exact changes they want made to a contract. Without a modification in place, a mission
is vulnerable to disputes over such issues as what work was specifically authorized and
when the work should have been completed.

Significant changes to projects, particularly construction projects, are common. It is in
the best interests of transparency and financial management control if such changes are
promptly executed through contract amendments or modifications. Therefore, we are
recommending that the Mission modify its contract with CH2M Hill with respect to the
waste-water treatment facility and groundwater investigations discussed above. We are
also recommending that the Mission ensure that all future significant changes to the
contract—especially those with cost impact—are executed through contract
amendments or modifications close to the dates the changes are determined to be
necessary.

    Recommendation No. 1: We recommend that USAID/Sri Lanka modify its
    contract with CH2M Hill to delete the waste-water treatment facility at
    Pottuvil, Sri Lanka, and add the work and funds related to the
    groundwater investigations.

    Recommendation No. 2: We recommend that USAID/Sri Lanka develop
    written procedures with timeframes for specific tasks to execute
    modifications for all future significant changes to the CH2M Hill contract’s
    scope of work as close as possible to the point the Mission determines
    that the significant changes are needed.




5
 A MAARD is an internal USAID document that provides a contracting officer with the information
needed to execute or modify an award, e.g., a contract.


                                                                                        12
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Sri Lanka provided written comments that are
included (without attachments) in Appendix II to this report.

For Recommendation No. 1, USAID/Sri Lanka provided evidence that the Regional
Contracting Officer (RCO) had amended the contract to add the work and funds related
to the groundwater investigations. In addition, USAID/Sri Lanka stated that it had
requested the RCO, on November 20, 2006, to delete the requirement for the
construction of the waste-water treatment facility from the contract. Based on our review
of the actions taken by the Mission, we consider that a management decision has been
reached on this recommendation.

For Recommendation No. 2, USAID/Sri Lanka agreed with the recommendation, and it
stated that it will ensure that the Mission Procurement Plan is updated to include
procurement actions for the Sri Lanka Tsunami Reconstruction Program as they are
identified. Furthermore, USAID/Sri Lanka submitted a copy of its fiscal year 2006
updated procurement plan that included pending contract modifications for the CH2M
Hill contract with milestone completion dates for when the modifications should be
finalized. Based on our assessment of the Mission’s response and review of the
supporting documentation, we consider that final action has been taken on this
recommendation.

USAID/Sri Lanka will need to coordinate final action on Recommendation No. 1 with the
Audit, Performance and Compliance Division of USAID’s Office of the Chief Financial
Officer.

USAID/Sri Lanka commented that our report incorrectly referred to its regional
contracting officer instead of a contracting officer from Washington D.C., who was
working temporarily at the Mission. Although our report referred only to a contracting
officer, we revised it to reflect we were referring to the temporary contracting officer.




                                                                                      13
                                                                               APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Manila audited USAID/Sri Lanka’s large-scale
infrastructure rebuilding activities under its Sri Lanka Tsunami Reconstruction Program
(SLTRP) in accordance with generally accepted government auditing standards. The
purpose of the audit was to determine whether the large-scale infrastructure rebuilding
activities were achieving planned outputs and within the cost estimates.

The audit covered the large-scale infrastructure rebuilding activities implemented for
USAID/Sri Lanka by CH2M Hill—the primary contractor—during the period from
September 7, 2005 through May 31, 2006. CH2M Hill was carrying out these activities
under a $33.3 million contract that began on September 7, 2005, and ends on
March 31, 2008. At May 31, 2006, USAID/Sri Lanka had disbursed $2.3 million to
CH2M Hill. Fieldwork was performed June 5-22, 2006, at USAID/Sri Lanka and the
offices of CH2M Hill, both in Colombo, Sri Lanka. In addition, site visits were made to
eight proposed construction sites in East and South Sri Lanka.

The audit focused on determining whether the large-scale infrastructure rebuilding
activities under the SLTRP were achieving planned outputs and within cost estimates,
as of the audit cutoff date of May 31, 2006. The audit covered all planned outputs with
start dates before the audit cutoff date. This excluded planned construction activities
because as of the cutoff date, actual construction of infrastructure—which accounted for
$23.4 million of the $33.3 million budget—had not yet begun.

As part of the audit, we assessed the significant internal controls used by USAID/Sri
Lanka to monitor the large-scale infrastructure rebuilding activities. The assessment
included controls related to whether the Mission (1) conducted and documented site visits
to evaluate progress and monitor quality, (2) required and approved an implementation
plan, (3) reviewed progress reports submitted by CH2M Hill, and (4) compared CH2M Hill’s
reported progress to planned progress and the Mission’s own evaluations of progress. We
also reviewed the Mission’s Federal Managers’ Financial Integrity Act report for fiscal year
2005 for any issues affecting the audited activities. Finally, we reviewed any relevant prior
audit reports.

Methodology
To answer the audit objective, we interviewed officials and staff from USAID/Sri Lanka
and CH2M Hill. We also reviewed and analyzed documents at both the Mission and
CH2M Hill that were relevant to determining whether the large-scale infrastructure
rebuilding activities were achieving planned outputs and within cost estimates, as of the
cutoff date of May 31, 2006. This documentation included the CH2M Hill contract and
its modifications, the original project implementation plan and its revisions, site visit and
other monitoring reports, progress reports, and financial records.

According to the CH2M Hill contract and related project implementation plans, the large-
scale infrastructure rebuilding activities had 54 planned preconstruction outputs with



                                                                                          14
                                                                            APPENDIX I

start dates before the audit cutoff date of May 31, 2006. We analyzed the progress of all
54 outputs.

We did not establish materiality thresholds for the audit objective.




                                                                                  15
                                                                          APPENDIX II


MANAGEMENT COMMENTS

November 21, 2006



November 21, 2006


MEMORANDUM

TO:           Regional Inspector General/Manila, Catherine M. Trujillo

FROM:         USAID/Sri Lanka Mission Director, Rebecca W. Cohn /s/

SUBJECT:      Mission Response to Audit of USAID/Sri Lanka’s Large-Scale
              Infrastructure Rebuilding Activities under its Sri Lanka Tsunami
              Reconstruction Program (draft Audit Report no. 5-383-07-00X-P)


Thank you for the opportunity to respond to this draft Audit Report which highlights
progress to-date on the Large-Scale Infrastructure program being implemented through
USAID/Sri Lanka’s partner, CH2MHill.

We understand that the audit necessarily focused on “outputs” given that no construction
had started by the time of the Audit. These outputs are primarily reports and activities
that were defined in the Project Implementation Plan (PIP) initially produced in October
2005. As per the contract, this PIP is updated quarterly as well as through schedules
provided in the CH2M Hill Monthly Progress Reports. The Auditors chose not to
consider the updated PIP during their Audit but rather used the original expected
completion dates from the October 2005 PIP.

We agree with the opinion expressed in the Audit Report that all the work is expected to
be completed within the contract’s original end date. We wish to comment on your
statement, “In many cases, however, the causes for the slippage [of individual outputs]
were outside the control of USAID/Sri Lanka or CH2M Hill”. While this is true for some
outputs, many other outputs were purposely rescheduled based on changing program
circumstances and priorities.

We would like to convey to you one factual correction to the Audit Report. The report
refers to the Regional Contracting Officer (RCO) in several instances. In fact, from the
February 18 to July 4, 2006, the Mission was utilizing the services of a temporary duty
contracting officer from USAID in Washington DC, under the general supervision of the
RCO in New Delhi.



                                                                                     16
                                                                            APPENDIX II


With regard to two audit recommendations, we are pleased to respond with the
following:

      Recommendation No. 1: We recommend that USAID/Sri Lanka modify its
      contract with CH2M Hill to delete the waste-water treatment facility at
      Pottuvil, Sri Lanka, and add the work and funds related to the groundwater
      investigations.

      Mission response: The RCO has amended the contract to add the work and
      funds related to the groundwater investigations. Supporting documentation
      (Attachment 1) is attached. The amendment to delete the waste-water treatment
      facility in Pottuvil could not be done until after the Preliminary Assessment Report
      (PAR) for water supply was submitted by CH2M Hill on October 23, 2006. Under
      our contract with CH2M Hill, they are tasked with assessing needs and
      recommending the construction of specific facilities. This is a deliberate process
      and the PAR is the document used to officially transmit this information to
      USAID. Although it was expected that CH2M Hill would recommend deletion of
      the waste-water treatment in the PAR, there was no justification to unilaterally
      delete it from their contract prior to receiving the water supply PAR. Now that the
      PAR for water supply has been issued by CH2M Hill, and approved by the CTO
      on October 24, 2006, a request was made on November 20, 2006, to the RCO to
      accordingly amend the contract to delete the waste-water treatment plant, as
      recommended in the PAR.

      Recommendation No. 2: We recommend that USAID/Sri Lanka develop
      written procedures with timeframes for specific tasks to execute
      modifications for all future significant changes to the CH2M Hill contract’s
      scope of work as close as possible to the point the Mission determines that
      the significant changes are needed.

      Mission response: The Mission agrees with the Audit Recommendation that
      specific contracting actions for the SLTRP need to be planned and monitored.
      The Mission will ensure that the Mission Procurement Plan is updated with the
      inclusion of SLTRP actions as they are identified (see Attachment 2). We do not
      believe it is practical to start using separate plans for different contracts.




                                                                                   17
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
